                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-00931-213


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

 John D. Dingell VA Medical Center 

         Detroit, Michigan 





July 22, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                              CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI



                                            Glossary 

                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       MH         mental health
                       MM         medication management
                       MSDS       material safety data sheet
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                      CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  AUD ........................................................................................................................     3

  MM ..........................................................................................................................    4

  DWHP Proficiency ..................................................................................................              5


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            6

  B. PACT Compass Metrics ....................................................................................                     8

  C. VISN Director Comments ..................................................................................                    12

  D. Facility Director Comments ...............................................................................                   13

  E. OIG Contact and Staff Acknowledgments .........................................................                              15

  F. Report Distribution .............................................................................................            16

  G. Endnotes ...........................................................................................................         17





VA OIG Office of Healthcare Inspections
                             CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted electronic health record reviews during the week of
May 26, 2014, for the CBOCs and PCCs under the oversight of the John D. Dingell VA
Medical Center and Veterans Integrated Service Network 11.

Review Results:         We conducted three focused reviews and made no
recommendations in the Designated Women’s Health Provider Proficiency review. We
made recommendations in the following two review areas:

Alcohol Use Disorder. Ensure that CBOC/PCC:

	   RN Care Managers receive motivational interviewing and health coaching training
     within 12 months of appointment to the Patient Aligned Care Team.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation was completed at each episode of care
     where the newly prescribed fluoroquinolone was administered, prescribed, or
     modified.

	   Provide medication counseling/education as required.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 12–14, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          i
                             CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI



                Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality. In general, our objectives are to:

   	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
        care of patients with AUD.

   	   Determine compliance with requirements for the clinical oversight and patient
        education of fluoroquinolones for outpatients.

   	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality, we
reviewed clinical and administrative records and discussed processes and validated
findings with managers and employees. The review covered the following three
activities:

   	   AUD

   	   MM

   	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
Details of the targeted study populations for the AUD, MM, and DWHP Proficiency
focused reviews are noted in Table 1.




VA OIG Office of Healthcare Inspections                                                          1
                                 CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI


Table 1. CBOC/PCC Focused Reviews and Study Populations
      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score1 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




1
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                              2
                                          CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI



                          Results and Recommendations 

AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCC complied
with selected alcohol use screening and treatment requirements.a

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 2. AUD
 NM                   Areas Reviewed                                            Findings
        Alcohol use screenings are completed during
        new patient encounters, and at least
        annually.
        Diagnostic assessments are completed for
        patients with a positive alcohol screen.
        Education and counseling about drinking
        levels and adverse consequences of heavy
        drinking are provided for patients with
        positive alcohol screens and drinking levels
        above National Institute of Alcohol Abuse and
        Alcoholism guidelines.
        Documentation reflects the offer of further
        treatment for patients diagnosed with alcohol
        dependence.
        For patients with AUD who decline referral to
        specialty care, CBOC/PCC staff monitored
        them and their alcohol use.
        Counseling, education, and brief treatments
        for AUD are provided within 2 weeks of
        positive screening.
  X     CBOC/PCC RN Care Managers have                       We found that 8 of 26 RN Care Managers did
        received MI training within 12 months of             not receive MI training within 12 months of
        appointment to PACT.                                 appointment to PACT.
  X     CBOC/PCC RN Care Managers have                       We found that 5 of 26 RN Care Managers did
        received VHA National Center for Health              not receive health coaching training within
        Promotion and Disease Prevention-approved            12 months of appointment to PACT.
        health coaching training (most likely TEACH
        for Success) within 12 months of
        appointment to PACT.
        The facility complied with any additional
        elements required by VHA or local policy.

Recommendation

1. We recommended that CBOC/PCC Registered Nurse Care Managers receive motivational
interviewing and health coaching training within 12 months of appointment to PACT.


VA OIG Office of Healthcare Inspections                                                                       3
                                          CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.b

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. Fluoroquinolones
 NM                   Areas Reviewed                                            Findings
  X     Clinicians documented the medication                 We did not find documentation that medication
        reconciliation process that included the             reconciliation included the newly prescribed
        fluoroquinolone.                                     fluoroquinolone in 15 (38 percent) of 40 patients’
                                                             EHRs.
        Written information on the patient’s
        prescribed medications was provided at the
        end of the outpatient encounter.
  X     Medication counseling/education for the              We did not find documentation of medication
        fluoroquinolone was documented in the                counseling that included the fluoroquinolone in 5
        patients’ EHRs.                                      (13 percent) of 40 patients’ EHRs.
        Clinicians documented the evaluation of each
        patient’s level of understanding for the
        education provided.
        The facility complied with local policy.

Recommendations

2. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

3. We recommended that staff provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                                          4
                                          CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.c

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 4. DWHP Proficiency
  NM                   Areas Reviewed                                           Findings
          CBOC and PCC DWHPs maintained
          proficiency requirements.
          CBOC and PCC DWHPs were designated
          with the WH indicator in the Primary Care
          Management Module.




VA OIG Office of Healthcare Inspections                                                                       5
                                                                              CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI
                                                                                                                                      Appendix A


                                                                       CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.2
The table below provides information relative to each of the CBOCs.

                                                                                          Uniques3                                   Encounters3

                                    Station                   CBOC
        Location          State                Locality4                    MH6        PC7       Other8       All       MH6         PC7      Other8        All
                                       #                       Size5
    Yale                  MI       553GA       Rural       Mid-Size           308      4,090      1,855      4,113        980 15,836          3,889      20,705
    Pontiac               MI       553GB       Urban       Mid-Size           411      2,748      1,727      3,003        841  6,205          4,731      11,777




2
  Includes all CBOCs in operation before March 31, 2013. 

3
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

4
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

5
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

6
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

7
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

8
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                          6
                                 CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI


                                  CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.9

                                  Specialty Care                                              Tele-Health
              CBOC                                           Ancillary Services11
                                    Services10                                                Services12
                                        ---                           ---                Tele Primary Care
    Yale
                                Anti-Coagulation               Audiology                 Tele Primary Care
                                      Clinic                 MOVE! Program13
    Pontiac                                                   Rehabilitation
 




9
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the

specified CBOC.

10
   Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

11
   Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

12
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

13
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                         7
                                                                          CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI
                                                                                                                                  Appendix B


                                                        PACT Compass Metrics




Data Definition.d The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.

VA OIG Office of Healthcare Inspections                                                                                                              8
                                                                            CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI




                d
Data Definition. The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures.
The total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on
the 1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.



VA OIG Office of Healthcare Inspections                                                                                                                 9
                                                                            CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI




 Data Definition.d This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
 VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
 assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
 primary care encounters WOP with a provider other than the patient’s PCP/AP.



VA OIG Office of Healthcare Inspections                                                                                                                  10
                                                                             CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI




Definition.d Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.


VA OIG Office of Healthcare Inspections                                                                                                                   11
                             CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI
                                                                                     Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                   Memorandum


           Date:       June 27, 2014

          From:        Director, Veterans In Partnership (10N11)

       Subject:        CBOC and PCC Reviews of the John D. Dingell VA
                       Medical Center, Detroit, MI

             To:       Director, Chicago Office of Healthcare Inspections (54CH)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

                       1. I concur with the findings and recommendations in the
                       CBOC and PCC Reviews of the John D. Dingell VA Medical
                       Center, Detroit, MI.

                       2. If you have any questions regarding the responses and
                       actions to recommendations, please contact me at
                       734-222-4300.

                       Thank you.




                       for in the absence of:
                       Paul Bockelman, FACHE




VA OIG Office of Healthcare Inspections                                                         12
                             CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI
                                                                                     Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       June 23, 2014

          From:        Director, John D. Dingell VA Medical Center (553/00)

       Subject:        CBOC and PCC Reviews of the John D. Dingell VA
                       Medical Center, Detroit, MI

             To:       Director, Veterans In Partnership (10N11)



                       1. I would like to express my gratitude to the Office of
                       Inspector General (OIG) CBOC and PCC Team for the
                       comprehensive and thorough review.

                       2. I have reviewed each recommendation in the draft report
                       for the John D. Dingell VA Medical Center, Detroit, MI and
                       concur with the findings and recommendations. Action plans
                       for each finding have been developed and implemented.




                       Pamela J. Reeves, MD




VA OIG Office of Healthcare Inspections                                                         13
                             CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that CBOC/PCC Registered Nurse Care
Managers receive motivational interviewing and health coaching training within
12 months of appointment to PACT.

Concur

Target date for completion: March 31, 2014

Facility response: The TEACH for Success and Motivational Interviewing training will be
assigned in TMS by CNM Primary Care to all new Registered Nurse Care Managers
assigned to Primary Care to ensure training is completed within 12 months of
appointment to PACT. Data will be tracked by CNM Primary Care to verify 100%
compliance and report monthly to Quality Leadership Committee.

Recommendation 2.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: March 31, 2014

Facility response: The ACOS for Integrated Clinical Services and Surgery Service will
provide education regarding the medication reconciliation policy. Clinical reminder will
be developed as a tracking mechanism. Quality and Performance will track data
monthly to verify 100% compliance and report to Quality Leadership Committee
monthly.

Recommendation 3. We recommended                          that    staff   provide     medication
counseling/education as required.

Concur

Target date for completion: March 31, 2014

Facility response: A process will be built into the ordering procedure to ensure
completion and documentation of the education component on the black box warning
when new prescriptions of fluoroquinolone are ordered. Pharmacy Service will track
data monthly to verify 100% compliance and report monthly to the Quality Leadership
Committee.


VA OIG Office of Healthcare Inspections                                                         14
                             CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Review                  Wachita Haywood, RN, Team Leader
Contributors
Other                   Judy Brown, Program Support Assistant
Contributors            Debra Boyd-Seale, PhD, RN
                        Alicia Castillo-Flores, MBA, MPH
                        Lin Clegg, PhD
                        Sheila Cooley, GNP, MSN
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jennifer Reed, MSHI, RN
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Laura Spottiswood, RN, MPH
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         15
                             CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI
                                                                                     Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Veterans In Partnership (10N11)
Director, John D. Dingell VA Medical Center (553/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Carl Levin, Debbie Stabenow
U.S. House of Representatives: Justin Amash, Dan Benishek, Kerry L. Bentivolio,
 Dave Camp, John Conyers, Jr., John D. Dingell, Bill Huizenga, Daniel T. Kildee,
 Sander M. Levine, Candice S. Miller, Gary C. Peters, Mike Rogers, Fred Upton, Tim
 Walberg


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         16
                               CBOC and PCC Reviews at John D. Dingell VA Medical Center, Detroit, MI
                                                                                       Appendix G

                                              Endnotes

a
  References used for the AUD review included:
 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
b
  References used for the Medication Management review included:
 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
c
  References used for the DWHP review included:
 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
d
  Reference used for PACT Compass data graphs:
 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                   17
